APPLICATION AND
SOLICITATION
DISCLOSURE
CLASSIC CARD
ALUMNI CLASSIC CARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

9.90%

APR for Balance Transfers

2.90% Introductory APR until December 31, 2022.

APR for Cash Advances

After that, your APR will be 9.90% .
9.90%

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
None
None
None
None
None
None
None
None
Up to $20.00
None
None

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for balance transfers will apply to transactions posted to your account from 01/01/2021 until
12/31/2021 . Any existing balances on Pennsylvania State Employees Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: July 23, 2019
This information may have changed after that date. To find out what may have changed, contact the Credit Union.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

©PSECU Form #3903 REV 1220

03720921-MXC10-C-3-040219 (MXC101-E)

For California Borrowers, the CLASSIC CARD - ALUMNI CLASSIC CARD may be a secured credit card. Credit
extended under this credit card account may be secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
PIN Replacement Fee:
None.
Rush Fee:
$40.00.
Unreturned Card Fee:
None.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03720921-MXC10-C-3-040219 (MXC101-E)

